                                     TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 28, 2012

Steven E. Birchfield, MR 6D-C
John G. Trawick, WT 9C-K

REQUEST FOR FINAL ACTION – AUDIT 2011-14477 – REVIEW OF TVA’S FINANCIAL
TRADING PROGRAM



Attached is the subject final report for your review and final action. Your written comments,
which addressed your suggestions, management decision, and actions planned or taken,
have been included in the report. Please notify us within one year from the date of this
memorandum when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact David S. Shields,
Auditor, at (865) 633-7364 or Rick C. Underwood, Director, Corporate Governance and
Finance Audits, at (423) 785-4824. We appreciate the courtesy and cooperation received
from your staff during the audit.




David P. Wheeler
Deputy Assistant Inspector General
 (Audits)
ET 3C-K

DSS:DBS
Attachment
cc: See page 2




       WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                     TVA RESTRICTED INFORMATION
Steven E. Birchfield
John G. Trawick
Page 2
September 28, 2012




cc (Attachment):
      Jerry E. Brown, SP 6A-C
      Mark A. Creech, MR 2D-C
      Micheal B. Fussell, WT 7C-K
      Kimberly S. Greene, WT 7C-K
      Peyton T. Hairston, Jr., WT 7B-K
      Christopher W. Hansen, SP 6A-C
      Joseph J. Hoagland, WT 7C-K
      Tom Kilgore, WT 7B-K
      Christian E. Kuenzli, MR 2B-C
      Richard W. Moore, ET 4C-K
      David L. Owens, WT 9C-K
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, MR 6D-C
      Robert B. Wells, WT 9B-K
      OIG File No. 2011-14477




                           TVA RESTRICTED INFORMATION
 


        
                              TVA RESTRICTED INFORMATION


                                                                                Audit Report
 
Office
      of the Inspector General                                                                                               

                                                  To the Senior Vice President, Power
                                                  Supply and Fuels, and to the Vice  
                                                  President and Chief Risk Officer 
                                                                                                                             

 

 

 

 

REVIEW OF TVA’S
 

 
FINANCIAL TRADING
 

PROGRAM 
 



 




 

 
 
 

 
Audit Team                                                                                                  Audit 2011-14477
David S. Shields                                                                                          September 28, 2012
Stephanie M. Broome
Rick L. Taylor
            WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
            distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                    is not to be further distributed without prior approval of the Inspector General or his designee. 


                            TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Audit Report




ABBREVIATIONS
ERM                        Enterprise Risk Management
FCA                        Fuel Cost Adjustment
FTP                        Financial Trading Program
FY                         Fiscal Year
MWh                        Megawatt Hour
PwC                        PricewaterhouseCoopers
TVA                        Tennessee Valley Authority
TVPPA                      Tennessee Valley Public Power Association
VaR                        Value at Risk




Audit 2011-14477

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 2

FINDINGS AND RECOMMENDATIONS ................................................... 3

    DESIGN OF FTP CONTROL STRUCTURE IS APPROPRIATE .................... 4

    COST-BENEFIT ANALYSIS NOT PERFORMED TO ENSURE
    PROGRAM BENEFITS OUTWEIGH RISKS ................................................... 5

    FTP PERFORMANCE IS NOT MEASURED AGAINST THE
    OBJECTIVES OF THE PROGRAM .............................................................. 11

    CUSTOMER COMMUNICATIONS COULD BE IMPROVED ........................ 13


APPENDICES
A. MEMORANDUM DATED SEPTEMBER 26, 2012, FROM JOHN TRAWICK
   AND STEVEN BIRCHFIELD TO ROBERT E. MARTIN

B. MEMORANDUM DATED SEPTEMBER 26, 2012, FROM JOHN TRAWICK
   AND STEVEN BIRCHFIELD TO ROBERT E. MARTIN




Audit 2011-14477

                                   TVA RESTRICTED INFORMATION
                        Audit 2011-14477 – Review of TVA’s Financial
                                      Trading Program
                                           EXECUTIVE SUMMARY

The Tennessee Valley Authority’s (TVA) Board of Directors approved a Financial
Trading Pilot Program in September 2003 to hedge or otherwise limit the
economic risks associated with the price of commodities covered by TVA’s Fuel
Cost Adjustment (FCA). At that time, the maximum Value at Risk (VaR) for
TVA’s portfolio was not to exceed $5 million on an annual basis without the
approval of the TVA Board. On May 17, 2005, the TVA Board approved the
request to expand and fully implement the Financial Trading Program (FTP).
The FTP currently has an aggregate transaction limit of $130 million (based on
one-day VaR) of which $90 million is allocated to natural gas hedging. TVA
management has approved a hedge strategy that requires a minimum of
50 percent to a maximum of 75 percent of the forecasted natural gas volume for
the fiscal year (FY) be hedged.

From FY 2006 through the first quarter of FY 2012, TVA’s natural gas-related
costs have been $3.14 billion; the FTP hedging program contributed another
$840 million for total costs of $3.98 billion. This contribution reflects the
difference between the locked-in price of natural gas and the market price of
natural gas at the time of delivery. TVA management stated the $840 million is a
result of the dramatic drop in the price of natural gas over the period. In addition,
TVA, as of December 31, 2011, expects the hedging program to add
$421 millioni to natural gas costs of $3.7 billion for the period January 2012 to
December 2017 for total natural gas costs of $4.1 billion. Although this situation
could reverse in an environment with rising gas prices, it illustrates the significant
potential impact, positive and negative, the FTP can have on TVA’s FCA while
attempting to reduce the overall volatility of fuel cost for generation of electricity.

As a result of the growth in FTP financial positions and the inherent risk with the
program, we scheduled an audit of the FTP as part of our FY 2012 audit plan.
Due to the significant size of the natural gas hedging program, compared to other
hedged commodities within the FTP, we generally limited our scope to the
natural gas hedging program.

The objectives of our audit were to evaluate:

1. Management oversight and the design of controls in place to mitigate
   operational risk exposure.
2. The program objectives and related performance measures.
3. Whether TVA is meeting defined performance objectives.

i
    The noted $840 million of recognized realized losses as well as the $421 million in FTP unrealized losses
    deferred as regulatory assets were disclosed by TVA in its annual reports for FYs 2006 – 2011 to the
    United States Securities and Exchange Commission on Form 10-K as well as its quarterly report for first
    quarter FY 2012 on Form 10-Q.
                                                                                                   Page i

                                    TVA RESTRICTED INFORMATION
                  Audit 2011-14477 – Review of TVA’s Financial
                                Trading Program
                                EXECUTIVE SUMMARY

4. How the FTP impacts TVA’s overall risk tolerance.

Our audit determined the design of TVA’s FTP control structure was appropriate.
However, we identified several areas where management oversight should be
improved to validate the usefulness and effectiveness of the program as well as
to ensure TVA’s stakeholders’ understanding of the program. Specifically:

   TVA has not conducted a comprehensive cost-benefit analysis to determine
    whether the benefits derived from the FTP are greater than the inherent risks
    of the program.
   TVA does not currently measure the performance of the FTP against defined
    program objectives.
   TVA’s communications with its customers did not sufficiently convey the
    FTP’s impact on rates.

Our recommendations to TVA’s Senior Vice President, Power Supply and Fuels,
and Vice President and Chief Risk Officer are to:

1. Conduct a comprehensive cost-benefit analysis that includes all costs and
   risks incurred by TVA.

2. Develop and implement macro level performance metrics that specifically
   measure the objective of the FTP, which is FCA price volatility mitigation.

3. Perform VaR back-testing on a regular basis to measure performance of the
   VaR model.

4. Improve efforts to ensure FTP performance information is communicated to
   customers.

TVA Management’s Comments – TVA management provided two separate
memorandums in response to our draft audit report. In summary, their
responses stated:

1. Although natural gas prices have experienced a dramatic decrease,
   which resulted in financial losses, the savings to the customer from lower
   natural gas prices have more than offset the hedged losses.
   Management also stated it plans to perform a cost-benefit analysis that
   will address the explicit costs and benefits of the natural gas FTP related
   to natural gas price risk and will commit to performing:
       A qualitative assessment of operational risk and reputational risk.
        However, management stated these evaluations would be performed
        separately from the natural gas price risk cost-benefit analysis.
                                                                            Page ii

                           TVA RESTRICTED INFORMATION
                  Audit 2011-14477 – Review of TVA’s Financial
                                Trading Program
                                 EXECUTIVE SUMMARY

      An assessment of counterparty credit risk.
      An assessment of collateral/margin posting risk.

2. They plan to retain hedge ladder adherence as the primary performance
   metric but will commit to calculating new performance metrics, one of which
   will include an FCA volatility reduction measure.

3. They plan to perform monthly VaR back-testing.

4. To improve communication of the FTP performance with customers, TVA will
   commit to: (1) providing the distributor and directly served customers with
   status of TVA’s commodity management activities of which financial trading is
   a component, (2) attending a Power Distributor District Managers meeting at
   least once per year to discuss the Contracting Plan and the impacts of the
   FTP, and (3) meeting with TVIC to discuss the Contracting Plan and the
   impacts of FTP at least once per year.

See Appendices A and B for TVA management’s complete response.

Auditor’s Response – TVA management stated that hedged losses were offset
by lower natural gas prices. We agree TVA customers benefited from market
conditions that lowered the price of natural gas. However, the $840 million in
natural gas financial trading losses TVA realized reduced the benefit of the lower
market gas prices because the losses were passed on to the customers.

Also, it is our opinion an effective cost-benefit analysis should include all costs,
not simply the explicit costs of financial trading. Management’s plan to perform
risk assessments that are independent of the natural gas FTP cost-benefit
analysis may not provide a relevant analysis of the FTP risks because each risk
reviewed independent of the others may not appear significant. However, the
accumulation of all the risks may be significant. Also, although not specifically
addressed by TVA management, in our opinion an analysis of market risk should
be included in the cost-benefit analysis. The $840 million in losses TVA realized
clearly illustrate the significant impact the program can have on TVA’s fuel costs
which are subsequently passed on to its customers.

We agree with management’s stated plans for (1) calculating new performance
metrics, (2) performing VaR back-testing on a regular basis, and (3) improving
communications with customers. However, management needs to ensure these
communications provide clear information regarding the FTP’s impact on rates
and volatility mitigation.




                                                                             Page iii

                            TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                 Audit Report


BACKGROUND
The Tennessee Valley Authority’s (TVA) Financial Trading Program (FTP) was
established to utilize financial instruments to hedge or otherwise limit economic
risks directly associated with the price of (1) Fuel Cost Adjustment (FCA)
“covered commodities,” and (2) other approved commodities under the FTP.
TVA’s Financial Trading Pilot Program was approved by TVA’s Board of
Directors on September 11, 2003. At that time, the maximum Value at Risk
(VaR)1 for TVA’s portfolio was not to exceed $5 million on an annual basis
without TVA Board approval.

On May 17, 2005, the TVA Board approved the request to fully implement the
Financial Trading Pilot Program. The FTP permits the use of futures, options,
swaps, and combinations of these instruments to hedge or otherwise limit
economic risks associated with the following covered commodities: (1) natural
gas, (2) fuel oil, (3) electricity, (4) coal, (5) emission allowances, (6) nuclear fuel,
and (7) other commodities (in which the cost is included in calculating the FCA,
such as ammonia and limestone).2

The FTP is not permitted to use financial instruments for any purpose other than
to hedge or otherwise limit the economic risks associated with the covered
commodities. In addition, the FTP is not permitted to use financial instruments
for speculative purposes or use nonstandard financial arrangements. The FTP is
currently limited to an aggregate transaction limit of $130 million (based on one-
day VaR). Of the $130 million aggregate transaction limit, $90 million is allocated
to natural gas hedging.

From fiscal year (FY) 2006 through the first quarter of FY 2012, TVA’s natural
gas-related costs have been $3.14 billion; the FTP hedging program contributed
another $840 million for total costs of $3.98 billion. This contribution reflects the
difference between the locked-in price of natural gas and the market price of
natural gas at the time of delivery. TVA management stated the $840 million is a
result of the dramatic drop in the price of natural gas over the period. In addition,
TVA, as of December 31, 2011, expects the hedging program to add
$421 million3 to natural gas costs of $3.7 billion for the period January 2012 to
December 2017 for total natural gas costs of $4.1 billion. Although this situation
could reverse in an environment with rising gas prices, it illustrates the significant

1
  VaR is a calculation representing the amount of money TVA could lose over a certain period of time with
  a certain level of confidence. TVA bases its VaR calculation on a 1-day holding period with a 95 percent
  confidence interval.
2
  On February 12, 2009, the TVA Board approved a pilot program for the hedging of certain construction
  materials to help control the cost to TVA’s projects. In addition, TVA also has pilot programs in place for
  the hedging of foreign currencies. However, according to TVA personnel, neither of these programs has
  been implemented.
3
  The noted $840 million of recognized realized losses as well as the $420 million in FTP unrealized losses
  deferred as regulatory assets were disclosed by TVA in its annual reports for FYs 2006 – 2011 to the
  United States Securities and Exchange Commission on Form 10-K as well as its quarterly report for first
  quarter FY 2012 on Form 10-Q.
Audit 2011-14477                                                                                       Page 1

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                Audit Report


potential impact, positive and negative, the FTP can have on TVA’s FCA while
attempting to reduce the overall volatility of fuel cost for generation of electricity.

OBJECTIVES, SCOPE, AND METHODOLOGY
As a result of the growth in FTP financial positions and the inherent risk with the
program, we scheduled an audit of the FTP as part of our FY 2012 audit plan.
The objectives of our audit were to evaluate:

1. Management oversight and the design of controls in place to mitigate
   operational risk exposure.

2. The program objectives and related performance measures.

3. Whether TVA is meeting defined performance objectives.

4. How the FTP impacts TVA’s overall risk tolerance.

Our objective was not to assess the effectiveness of TVA’s system of internal
controls related to the FTP. Therefore, internal controls associated with the FTP
were not tested as part of this audit. The scope of our work included the FTP
policies, procedures, performance measures, and results from the inception of
the FTP. Due to the significant size of the natural gas hedging program,
compared to other hedged commodities within the FTP, we generally limited our
scope to the natural gas hedging program.

To achieve our objectives, we:

    Obtained and reviewed documentation and guidance pertinent to FTP
     operations including credit and operational risk mitigating activities.
    Obtained and reviewed previous FTP consulting reports.
    Conducted interviews with TVA personnel from multiple TVA organizations.
    Compared TVA’s VaR calculation to the calculation recommended in prior
     consulting reports.
    Obtained and reviewed information concerning TVA’s VaR back-testing.4
    Obtained a list of FTP performance metrics and compared them to stated
     FTP objectives to determine if they were appropriate.
    Obtained and reviewed TVA annual reports to obtain information relevant to
     the FTP.


4
    Back-testing consists of looking at how often a loss in a day exceeded the 1-day VaR. If losses exceed
    the 1-day VaR on about 5 percent of the days for a VaR calculated using a 95-percent confidence level,
    one would feel reasonably comfortable with the methodology for calculating the VaR. If this happened
    on about 10 percent of the days, the VaR calculation methodology may not be accurate.
Audit 2011-14477                                                                                    Page 2

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                   Audit Report


    Obtained and reviewed performance information related to the FTP’s objective
     of reducing fuel cost volatility and its impact on TVA rates.
    Interviewed representatives of the Tennessee Valley Public Power Association
     (TVPPA)5 to determine their opinion of the FTP and what information they
     have been provided regarding the program.
    Obtained and reviewed Enterprise Risk Management (ERM) risk maps and
     information relevant to the FTP.
    Conducted interviews with TVA personnel to determine TVA’s overall risk
     tolerance and the impact the FTP has on TVA’s overall risk tolerance.
    Obtained a Middle Office review for limit violations occurring from the
     beginning of FY 2011 through April 30, 2012.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

FINDINGS AND RECOMMENDATIONS
Our audit determined the design of TVA’s FTP control structure was appropriate.
However, we identified several areas where improvement is needed to validate
the usefulness and effectiveness of the program as well as to ensure TVA’s
stakeholders’ understanding of the program. Specifically:

1. TVA has not conducted a comprehensive cost-benefit analysis to determine
   whether the benefits derived from the FTP are greater than the inherent risks
   of the program.

2. TVA does not currently measure the performance of the FTP against defined
   program objectives.

3. TVA’s communications with its customers did not sufficiently convey the
   FTP’s impact on rates.

The following provides a more detailed discussion of our findings and
recommendations.




5
    TVPPA is a nonprofit organization that represents the interests of consumer-owned electric utilities
    operating within the TVA service area.
Audit 2011-14477                                                                                       Page 3

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                Audit Report


DESIGN OF FTP CONTROL STRUCTURE IS APPROPRIATE
Many different TVA organizations, councils, and committees play a role in the
oversight of TVA’s FTP program. At the highest level, the TVA Board is
responsible for specifying program purpose and limitations, including portfolio
risk limits. At the operational level, TVA’s Structuring and Portfolio Management
and Standard Products, Power Origination departments in Power Supply and
Fuels (Front Office) have responsibility to (1) develop and implement
risk-mitigating hedge strategies and (2) enter into the actual financial hedge
transactions. The Portfolio Risk Oversight Committee oversees the hedge
strategy development and it is the responsibility of the Risk Oversight and
Control department (Middle Office) to monitor and determine whether
transactions are in compliance with established strategies, procedures, and
limits.

From a controls perspective, segregation of duties requires functional separation
of Front, Middle, and Back Office6 responsibilities. TVA’s control structure is as
follows:

    The Front Office executes transactions and subsequently enters the
     transaction details into the Transaction Management System.
    The Middle Office is then responsible for reviewing and verifying all financial
     transaction details in the Transaction Management System by comparing
     transactions to broker statements and counterparty confirmations. This
     review serves as a post-approval for transactions executed in accordance
     with TVA’s hedge strategy and ensures completeness and accuracy of trade
     data. Approved transactions are “locked” in the Transaction Management
     System.
    Back Office activities include maintaining margin accounts, reconciling
     monthly cash activity, and financial reporting.

TVA uses a natural gas hedging ladder to ensure the desired percentage of
forecast need is hedged. In general, the hedge ladder requires at least
50 percent, but no more than 75 percent, of expected natural gas requirements to
be hedged for the next 18 months with minimum and maximum hedge amounts
decreasing beyond 18 months. Hedging up to 75 percent of need allows for
changes to generation plans while avoiding over hedging. Recommendations to
hedge over 75 percent of need are presented to executive management for
approval. Hedge violations are defined as a position above the hard-stop7 limit,
and the position is not rebalanced:


6
    The Back Office for the FTP program is made up of several functional areas in TVA including Controller,
    Business Services- Planning and Commercial Operations, Fossil Generation Controller, Treasury, and
    Fossil Generation/Coal and Gas Services.
7
    Hard stop is defined as 100 percent of needs hedged through 18 months, then declining ratably through
    the 38th month to 75 percent of needs and remaining at 75 percent through the 72nd month.
Audit 2011-14477                                                                                     Page 4

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report


   For the prompt 3 months within 30 calendar days after notification of a hard-
    stop violation by the Middle Office.
   For positions beyond the initial 3 months of the ladder, evaluated on a
    balance of year and calendar year basis, within 90 calendar days after
    notification of a hard-stop violation.

To assess TVA’s compliance with trade limits, we obtained a listing of all hedge
ladder limit variances that occurred from FY 2011 and through April 30, 2012.
TVA’s Portfolio Risk Management group reported financial gas positions were
outside ladder limits, but not hard-stop limits, 27 times during FY 2011 and
9 times in FY 2012 through April 30. Each of these instances was subsequently
resolved, and TVA’s Portfolio Risk Management group concluded because the
FTP was never above the hard-stop limits at any time, there were no violations.

In addition to our assessment of TVA’s design of its control structure, we also
reviewed consulting reports regarding the FTP that were provided to TVA
between 2009 and 2012. Although the reports included a few findings related to
TVA’s controls, the reports generally indicated TVA’s FTP controls are standard
for their industry.

In summary, the design of TVA’s control structure surrounding the FTP appears
sufficient to ensure trading is conducted in a manner consistent with TVA Board
approval and management-approved hedging strategies.

COST-BENEFIT ANALYSIS NOT PERFORMED TO ENSURE
PROGRAM BENEFITS OUTWEIGH RISKS
One of TVA’s ERM guiding principles states:

         “The cost and benefits of risk management must be understood.
         A sound risk management plan is based on the understanding of
         exposure to risk, the cost of mitigation and whether taking on any
         of the risk is necessary to achieve the TVA mission. Effective risk
         management plans are actionable and measurable.”

TVA management responsible for the FTP stated a cost-benefit analysis for the
FTP had not been performed because the cost of the FTP (salaries and trading
expenses) is insignificant when compared to TVA’s fuel costs. During discussions
with management from TVA’s Risk Management group, we were informed TVA
does not have a high-risk appetite and is generally risk averse. When we asked
whether the FTP had ever had a significant impact on TVA’s overall risk, we were
told by management they were unaware of any significant impact to TVA’s risk
profile as a result of FTP activities. Management also stated by its general
nature, the FTP is a risk-lowering program designed to reduce overall risks
associated with price exposures in volatile markets.


Audit 2011-14477                                                                Page 5

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                   Audit Report


Although we agree TVA derives certain benefits by operating the FTP, there are
significant inherent risks to operating the FTP that should also be considered. To
better illustrate this, we have summarized some of the benefits TVA receives from
operating the FTP and some of the risks TVA should consider when evaluating
the usefulness of the program.

Benefits of TVA’s FTP
Benefits to TVA from operating the FTP include, but are not limited to: (1) natural
gas price stability, (2) increased budget accuracy, (3) customer preference for
stable prices, (4) increased natural gas market knowledge, and (5) greater
market liquidity.

   Natural gas price stability – Attained through the use of financial hedging.
    Through the use of financial instruments, TVA is able to “lock in” at the
    intended hedge price. Since changing to a monthly FCA in October 2009, the
    standard deviation of fuel rates with hedging is $0.21/megawatt hour (MWh)
    less than fuel rates without hedges ($3.27 versus $3.48). TVA provided the
    following schedule (see Table 1 below) illustrating the impact of natural gas
    hedging on rates and on the variation from the average (standard deviation).
    This schedule shows since inception, the FTP has reduced the volatility of the
    TVA fuel rate by approximately 8 cents prior to the monthly adjustment in the
    FCA and by approximately 21 cents after the FCA started being adjusted
    monthly.

                                   Through April 2012 Actuals
                                                                Fuel Rate
                      Since Inception*    Actual Fuel Rate
                                                             Without Hedges
                   Average                           $21.39           $20.44
                   Standard Deviation                  $3.01           $3.09
                   Since Monthly FCA*
                   Average                           $22.06            $21.06
                   Standard Deviation                  $3.27            $3.48
                   *The FTP was approved in May 2005. The change to the
                    monthly FCA began in October 2009.
                                                                        Table 1

    Many factors contribute to FCA volatility. According to TVA management,
    factors that play a more significant role in FCA volatility than natural gas
    prices include: (1) rainfall, (2) temperature, and (3) Equivalent Forced Outage
    Rate.
   Increased budget accuracy – Possible through the use of hedging. In
    particular, the hedging strategy ladder allows for increased budget accuracy
    for the prompt 18 months for natural gas fuel expense.
   Customers’ preference for stable prices – The primary objective of the FTP.
    During discussions with the TVPPA, they informed our office distributors and
    industrial customers have a strong desire for rate stability.
Audit 2011-14477                                                                       Page 6

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Audit Report


    Increased natural gas market knowledge – Attained through the activities of
     the FTP. TVA stated knowledge attained in the financial markets is also
     beneficial to TVA in the physical markets.
    Greater market liquidity – In the financial markets, compared to the physical
     markets, increases TVA’s ability to move in and out of natural gas positions.

Risks Associated With TVA’s FTP
TVA management informed us a cost-benefit analysis for the FTP had not been
performed because they considered the cost of the FTP (salaries and trading
expenses) as being insignificant compared to TVA’s fuel costs. However, an
effective cost-benefit analysis should take into account all inherent risks
associated with the program. Some of the risks that should be considered in a
cost-benefit analysis of the FTP include: (1) market risk, (2) counterparty credit
risk, (3) operational risk, (4) reputational risk, and (5) collateral/margin posting
risk.

    Market risk – Typically defined as potential variance to budget or cost
     increases due to higher market prices. However, the other side to this is the
     risk that hedged prices fall generating trading losses and subsequently
     resulting in higher-than-market fuel expenses. Hedging is not intended to
     lower your cost but to stabilize it over time. The objective of hedging is to
     eliminate the peak prices, but the cost of cutting off the peak is giving away
     the valley price.

     From FY 2006 through the first quarter of FY 2012, TVA’s natural gas-related
     costs have been $3.14 billion; the FTP hedging program contributed another
     $840 million for total costs of $3.98 billion. This contribution reflects the
     difference between the locked-in price of natural gas and the market price of
     natural gas at the time of delivery. TVA management stated the $840 million
     is a result of the dramatic drop in the price of natural gas over the period. In
     addition, TVA, as of December 31, 2011, expects the hedging program to add
     $421 million to natural gas costs of $3.7 billion for the period January 2012
     through December 2017 for total natural gas costs of $4.1 billion. Although
     this situation could reverse in an environment with rising gas prices, it
     illustrates the significant potential impact, positive and negative, the FTP can
     have on TVA’s FCA while attempting to reduce the overall volatility of fuel
     cost for generation of electricity. Table 2 summarizes TVA’s natural gas-
     related FTP recognized gains and losses beginning with FY 20068.




8
    Data related to FTP gains and losses taken from TVA’s annual 10-K and 10-Q financial statements
    issued during the time period described.
Audit 2011-14477                                                                                  Page 7

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                                      Audit Report



                                  Recognized Gain/(Loss) in Millions
                 50
                                            10 
                   0

                (50)     (23)
                                     (45)
               (100)                                                        (61)

               (150)
                                                           (152)   (164)
               (200)
               (250)
               (300)

               (350)
               (400)
                                                   (405)
               (450)
                         2006        2007   2008    2009   2010    2011    Q1 2012

                                                                             Table 2

    (Note: According to TVA, the cumulative loss associated with locking in
    natural gas at the intended hedge price added approximately $1/MWh to
    TVA’s fuel rate. A $1/MWh impact is about 1.4 percent on the average
    wholesale rate. The impact to a residential customer using 1,000 kilowatt
    hours per month would be about $1 per month.)

   Counterparty credit risk – The potential for losses and increased costs arising
    from counterparty default. Counterparty credit risk is inherent when private
    contracts are entered into with direct counterparties. The advantage of direct
    counterparty trades is avoidance of all or most of the collateral and margin
    requirements of clearing houses. TVA has already experienced this risk
    firsthand as it used MF Global, a company that subsequently filed bankruptcy,
    to clear financial gas trades. TVA had posted approximately $33 million cash
    collateral with MF Global at the time of the bankruptcy filing. TVA has
    recovered approximately $8 million of this balance from the trustee appointed
    in the Securities Investor Protection Act proceeding ("Trustee"). TVA filed a
    claim with the Trustee to recover the remaining funds TVA deposited with MF
    Global, and on June 4, 2012, the Trustee fully allowed TVA's claim. However,
    it remains unclear whether TVA will recover all of the remaining funds.
   Operational risk – The risk an organization faces that could be caused by
    human or system errors. Intentional wrongdoing and fraud would also be
    included in this category. TVA previously had a trader who was not following
    TVA policies and, as a result, no longer works for TVA. While this trader’s
    actions had no known adverse financial impact to TVA, it does underscore the
    fact TVA’s FTP is not free from operational risks.
   Reputational risk – Anything that may have a negative impact on an
    organization’s reputation. TVA risks reputational harm as a result of any of
    the aforementioned risks. A company’s reputation can be damaged much


Audit 2011-14477                                                                          Page 8

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                     Audit Report


    faster than it can be restored. As Warren Buffet once said, “It can take
    20 years to build a reputation and only five minutes to ruin it.”
   Collateral/Margin Posting risk – The risk TVA will have to post substantial
    unexpected cash collateral/margin requirements or other forms of collateral
    on commodity derivatives and commodity futures. This risk could
    consequently result in increased cash collateral needs and reduced financial
    flexibility for TVA. In some instances, collateral/margin requirements can be
    in the hundreds of millions of dollars depending on the size of the company’s
    position and market trends. Collateral/margin positions of this magnitude can
    have a significant impact on TVA, especially if TVA has to borrow money to
    fund these positions with TVA’s debt ceiling limitations. As of April 2012, TVA
    ranked “Collateral/Margin Posting” as the tenth most significant risk to TVA.

    During calendar year 2012 through the beginning of May, TVA’s total cash
    collateral for the FTP ranged from about $155 million to $325 million (see
    Table 3 below). Of the total collateral posted, approximately 95 percent was
    for natural gas positions.


                   Total Collateral Posted by TVA for the FTP 
          $350,000,000                                               $325,031,572
          $325,000,000
          $300,000,000
          $275,000,000
          $250,000,000
          $225,000,000
          $200,000,000
          $175,000,000
                                  $155,242,834
          $150,000,000
          $125,000,000
          $100,000,000




                                                 Collateral Posted

                                                                                       Table 3

    With “Collateral/Margin Posting” ranked as TVA’s tenth most significant risk, it
    appears the FTP program may be increasing TVA’s overall risk exposure to
    reduce natural gas price exposure. Without performing a comprehensive
    cost-benefit analysis of the FTP program, TVA management may not be
    considering all the costs and benefits associated with the program in its risk
    tolerance deliberations.

Summary – As stated above, we agree the FTP provides a number of benefits
for TVA. However, TVA may not be giving consideration to all the FTP risk
exposures to accurately determine whether the benefits outweigh the risks of the

Audit 2011-14477                                                                         Page 9

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                             Audit Report


program. As stated in TVA’s ERM guiding principles, “A sound risk management
plan is based on the understanding of exposure to risk, the cost of mitigation and
whether taking on any of the risk is necessary to achieve the TVA mission.”

Recommendation – We recommend the Senior Vice President, Power Supply
and Fuels, conduct a comprehensive cost-benefit analysis of the FTP to
determine if the benefits of the FTP are being offset by the risks associated with
the program.

TVA Management’s Comments – In response to our draft report, TVA
management stated:

         “To focus solely on the FTP losses without regard to the overall
         portfolio does not provide a clear picture of the impact to the FCA.
         Although natural gas prices have experienced a dramatic decrease,
         which resulted in financial losses, the savings to the customer from
         lower natural gas prices have more than offset the hedged losses.”

Management also stated it plans to perform a cost-benefit analysis that will
address the explicit costs and benefits of the natural gas FTP related to natural
gas price risk. The costs include administration (salaries, systems, etc.) and
operations (transaction costs, etc.), and the benefits include the value of volatility
reduction and price certainty. Management also stated it will commit to
performing:

1. A qualitative assessment of operational risk and reputational risk. However,
   management stated these evaluations would be performed separately from
   the natural gas price risk cost-benefit analysis.

2. An assessment of counterparty credit risk.

3. An assessment of collateral/margin posting risk.

See Appendices A and B for TVA management’s complete response.

Auditor’s Response – Management stated that hedged losses were offset by
lower natural gas prices. We agree TVA customers benefited from market
conditions that lowered the price of natural gas. However, the $840 million in
natural gas financial trading losses TVA realized from FY 2006 through the first
quarter of FY 2012 reduced the benefit of the lower market gas prices because
the losses were passed on to TVA customers.

As discussed in our report, it is our opinion an effective cost-benefit analysis
includes all costs, not simply the explicit costs of financial trading. Although
management stated it plans to perform separate assessments of various risks, it
plans to perform these independent of the natural gas FTP cost-benefit analysis.
Performing these independent of one another may not provide a relevant

Audit 2011-14477                                                                Page 10

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                     Audit Report


analysis of the FTP risks because each risk reviewed independent of the others
may not appear significant. However, the accumulation of all the risks may be
significant. Also, although not specifically addressed by TVA management, in
our opinion an analysis of market risk should be included in the cost-benefit
analysis. The $840 million in losses TVA realized clearly illustrate the significant
impact the program can have on TVA’s fuel costs, which are subsequently
passed on to TVA’s customers.

FTP PERFORMANCE IS NOT MEASURED AGAINST THE
OBJECTIVES OF THE PROGRAM
As discussed in the background section of this report, the primary objective of
TVA’s FTP is to mitigate the price volatility of the commodities covered by TVA’s
FCA. This objective is consistent with the objective described by two
consultants9 employed by TVA to assess the FTP. However, TVA’s primary
measurements related to the FTP are VaR calculations and hedge position
reports. As discussed below, neither of these measure FCA volatility mitigation.

VaR Calculation
TVA’s primary risk metric is the VaR measure. VaR is essentially the answer to
the question, “What is TVA’s worst-case scenario and how much money could
TVA lose over a certain period of time with a certain level of confidence?” TVA
bases its VaR calculation on a 1-day holding period with a 95-percent confidence
interval. Even though TVA has a VaR limit for the FTP, it cannot be used as a
performance measure for the FTP because it does not address the objective of
the FTP, which is to reduce FCA volatility.

In January 2010, PricewaterhouseCoopers (PwC) recommended TVA implement
a new VaR methodology and back-testing. When TVA performed limited VaR
back-testing in June 2011, it found it had been calculating the VaR incorrectly
and corrected the calculation as of August 17, 2011. However, TVA has not
performed another VaR back-test because TVA is in the process of changing the
method of calculating the VaR to a Monte Carlo simulation calculation method.
TVA stated the average VaR is so far below the VaR ceiling, the calculation error
posed no risk of exceeding the TVA Board-approved VaR limit.

Hedge Position Reports
When asked how it measured the performance of the FTP, TVA officials in Power
Supply and Fuels and Risk Management stated hedge position reports are TVA’s
primary performance measure. Using this as a performance measure would
indicate the program is successful because TVA had no hedge ladder limit
violations from FY 2011 and through April 30, 2012. However, this measure
does not provide any information related to the success of the program in

9
    In its 2009 report to TVA, RMI Consulting stated that providing price stability to customers at a
    reasonable cost is the most often specified goal of fuel hedging programs. PwC, in a report dated
    January 2010, similarly stated that utility financial trading programs are generally established for the
    purpose of limiting economic risk associated with commodities.
Audit 2011-14477                                                                                         Page 11

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                             Audit Report


reducing FCA volatility. (Note: TVA calculates four other metrics to measure the
performance of the gas hedging program, but these are primarily used internally
by TVA’s Front Office and are not intended to measure the program’s
effectiveness with regard to FCA volatility mitigation.)

During our review of prior consulting reports, we noted TVA received
recommendations from three different consultants (RMI Consulting, Inc.; PwC;
and Navigant Consulting, Inc.) to implement a performance metric to measure
the hedging objective. In a presentation to the TVA Board’s Audit, Governance,
and Ethics Committee on March 8, 2010, TVA management informed them that a
consultant had recommended TVA implement additional benchmarks to assess
the volatility reduction benefit of the hedging program and execution
performance/risks. In response to the recommendation, TVA management’s
presentation stated:

         “Agree: Management supports performance benchmarking and
         back-testing of the effectiveness of its financial hedging program
         against the stated objective of volatility dampening. For natural
         gas, upon implementation of the expanded TriplePoint CXL system,
         management plans to produce an initial performance analysis
         which will include actual natural gas price performance as
         compared to both (a) a naked, at-market position and (b) a ‘no
         financial hedges’ positions . . . (Front and Middle Offices, Q4 2010)”

TVA management informed our office TriplePoint CXL was subsequently
implemented in two phases, Q4 2010 and Q2 2011. However, a volatility
reduction measure has yet to be implemented.

Recommendations – We recommend TVA’s:

   Senior Vice President, Power Supply and Fuels, develop and implement
    macro level performance metrics that specifically measure the objective of the
    FTP, which is FCA price volatility mitigation.
   Vice President and Chief Risk Officer perform VaR back-testing on a regular
    basis to measure performance of the VaR model.

TVA Management’s Comments – TVA management stated it plans to retain
hedge ladder adherence as its primary performance metric. Management also
stated it commits to calculate new performance metrics, one of which will include
an FCA volatility reduction measure. Management also committed to performing
monthly VaR back-testing. See Appendices A and B for TVA management’s
complete response.

Auditor’s Response – We agree with management’s planned actions.




Audit 2011-14477                                                                  Page 12

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


CUSTOMER COMMUNICATIONS COULD BE IMPROVED
TVA recently made a commitment to being more transparent. Regarding the
FTP, TVA also made a commitment to communicate. Specifically, in a 2007
presentation to the TVPPA concerning the FTP, TVA stated it would
“Communicate, communicate, communicate” while also committing to
establishing appropriate performance metrics for the program. As stated
previously, TVA has yet to develop a performance measure to address program
performance in meeting the objective of reducing fuel cost volatility. Due to the
potential effects of the FTP on fuel rates, we interviewed personnel from the
TVPPA to determine their opinion on hedging fuel costs.

TVPPA stated it is in favor of a program that will decrease FCA volatility, as rate
stability is highly desirable by the distributors. When asked how well TVA
communicates the results of the FTP to them, TVPPA stated TVA is generally
very good at answering its questions. In addition, the TVPPA members we
interviewed stated, in their experience, TVA is more transparent than utilities in
the investor-owned community. According to TVPPA, its greatest challenge with
regard to attaining information from TVA is in knowing which questions to ask.
Additionally, TVPPA stated it would like benchmarking data comparing TVA’s
FTP expenses and performance to peer utilities.

We asked TVA if TVPPA was aware of the trading losses the FTP has incurred
since its inception, and we were informed TVPPA reviews TVA’s financial
statements and would likely be aware of those losses. However, during our
interview with TVPPA, we asked if it reviews the financial statements to obtain
FTP-related information. TVPPA stated it does not specifically review the
financial statements for this information, instead stating it primarily looks for
information detailing fuel cost trends. TVPPA also informed us it was not aware
of the FTP’s impact on rates.

Recommendation – We recommend the Senior Vice President, Power Supply
and Fuels, improve efforts to ensure FTP performance information is
communicated to customers.

TVA Management’s Comments – In their comments to the draft audit report,
TVA management stated:

         “As stated in the Audit Report, TVA’s customers are generally most
         concerned about the overall fuel cost trends, not individual
         components that are not driving changing in those trends. Focusing
         on a particular element of broader program may not facilitate
         improved communication.”

Management also stated, however, to improve communication of the FTP
performance with our customers, TVA would commit to:


Audit 2011-14477                                                              Page 13

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Audit Report


1. Provide the distributor and directly served customers with status of TVA’s
   commodity management activities, of which financial trading is a component.

2. Attend a Power Distributor District Managers meeting at least once per year
   to discuss the Contracting Plan and the impacts of the FTP.

3. Meet with TVIC to discuss the Contracting Plan and the impacts of FTP at
   least once per year.

See Appendices A and B for TVA management’s complete response.

Auditor’s Response – Our report does not state that TVA’s customers are
generally most concerned about the overall fuel cost trends, not individual
components that are not driving changing in those trends. Instead, we stated
that TVPPA informed us it does not specifically review TVA’s financial statements
for FTP-related information, and they were not aware of the FTP’s impact on
rates.

We agree with management’s plan to improve communications of the FTP
performance with TVA’s customers. However, management needs to ensure
these communications provide clear information regarding the FTP’s impact on
rates and volatility mitigation.




Audit 2011-14477                                                          Page 14

                                  TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 1 of 5




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 2 of 5




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 3 of 5




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 4 of 5




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 5 of 5




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 2 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 3 of 3




TVA RESTRICTED INFORMATION
